CERTIFICATE OF COMPLIANCE

No.

JAMES VINCENT LIOTT,
Petitioner
U.S. BANK NATIONAL ASSOCIATION
AS TRUSTEE FOR CVI LCF MORTGAGE
LOAN TRUST 1,
Respondent
As required by Supreme Court Rule 33^.1 (h), I certify that the petition
for a writ of certioari contains 234 words, excluding the parts of the
petition that are exemted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and is
correct.

Executed on September 28, 2021

4 *

*

